Case: 18-3114

Document: 55
Filed: 08/06/2020
Pages: 8
NONPRECEDENTIAL DISPOSITION
To be cited only in accordance with Fed. R. App. P. 32.1

United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Argued August 4, 2020
Decided August 6, 2020
Before
DANIEL A. MANION, Circuit Judge
DIANE P. WOOD, Circuit Judge
AMY C. BARRETT, Circuit Judge
No. 18-3114
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
HARRY MILLER,
Defendant-Appellant.

Appeal from the United States District
Court for the Western District of Wisconsin.
No. 3:17CR00082-001
William M. Conley,
Judge.

ORDER
Harry Miller was convicted of sex trafficking and maintaining a drug house.
After the trial, his attorney obtained law-enforcement records showing that a local
undercover investigation of Miller had not spotted evidence of these crimes. Miller
moved for a new trial, arguing that the government violated his rights under the Due
Process Clause and Brady v. Maryland, 373 U.S. 83 (1963), by failing to turn this
information over to him before trial. The district court denied the motion, explaining
that the evidence about the local undercover investigation was neither favorable to
Miller nor material to his defense. We affirm the judgment.

1a

Case: 18-3114

Document: 55

Filed: 08/06/2020

No. 18-3114

Pages: 8

Page 2
I

The government charged Miller with two counts of sex trafficking, 18 U.S.C.
§ 1591(a)(1), and one count of maintaining a drug house, 21 U.S.C. § 856(a)(1). For the
sex-trafficking counts (the focus of this appeal), the government accused Miller of using
force, threats, and drugs to coerce Alishayna Daniels and Emily Breitzke, both heroin
addicts, to engage in commercial sex acts. He allegedly did so from about late February
to mid-June of 2017, when the women lived with him in a studio apartment in a
commercial building in Madison, Wisconsin, where Miller worked.
A. Pre-Trial Proceedings
Through discovery, the defense learned that local law enforcement officers had
conducted an undercover investigation of Miller’s building during part of the time
described in the indictment. At defense counsel’s request, the government revealed the
undercover officer’s name: David Mertz. The government also disclosed other
discovery materials during the week before trial, prompting Miller to move for a
continuance. He was concerned, in part, that Thomas Roloff, the local detective working
with the government, had failed to disclose Brady materials arising from witness
interviews. The district court denied the motion but ruled that Miller could question
Roloff under oath before trial. The government then sent the defense a statement from
Roloff about the undercover investigation. In it Roloff asserted that he had “no reports”
to disclose because “there was no information gathered of any substance”; Mertz was at
the building only “a few times”; and the investigation was “related to another case” that
“never really took off.”
Equipped with this information, defense counsel questioned Roloff about the
investigation before the trial began. Roloff testified that Mertz “didn’t have a lot of
contact with people” at the property, never reported “any criminal activity,” and did
not generate reports because “nothing … took place that warranted a report.” His office
had one video recording of Miller walking in the parking lot but did not have
surveillance video from the property. Based on Roloff’s testimony, the district court
ruled that the government had fulfilled its disclosure obligations.
B. Trial
The government put on several witnesses to show that Miller abused Breitzke
and Daniels, “controlled [their] access to heroin to gain power over them,” and then

2a

Case: 18-3114

Document: 55

Filed: 08/06/2020

No. 18-3114

Pages: 8

Page 3

“forced them to sell their bodies” for his financial gain. Both victims took the stand.
Breitzke testified that she lived at Miller’s studio from late February 2017, when she
went there for heroin, until shortly before her arrest in mid-June. She said that on her
first night there, she posted a sex ad on Backpage.com (using the name “Diamond”) to
get money to pay Miller for heroin. After that, Miller “repeatedly” told her to post ads,
and she had multiple “dates” each day. She was not allowed to turn down “dates,” and
Miller told her that if she did not post more ads or tried to leave, he would beat her,
withhold heroin to make her sick, or have her arrested on her outstanding warrants.
Breitzke said that she was not allowed to leave his studio, and that once when she tried,
she “got pulled back in.”
Daniels had a similar story to tell about the three weeks that she stayed at
Miller’s studio during March 2017. She initially went there to get heroin; Miller fronted
her $20 worth of drugs, and she posted a Backpage sex ad to get money to pay him
back. A few dates netted her about $800 or $900, which she split evenly with Miller and
Breitzke to buy more drugs. The next day, Miller told her that she owed him another
$300 and that she could not leave until it was paid off. Daniels testified that she posted
ads “[a]t least once a day” and had at least three “dates” a day; she was required to give
all the money to Miller. Miller sometimes withheld drugs until Daniels showed him text
messages confirming that a “date” was on the way. He also threatened her dog and
strangled or hit her, including once when he thought that she was trying to leave.
Eventually, fearing for her dog’s safety, Daniels called her mother, who in turn called
the police. After some cajoling to get Daniels to leave the building (she said she
“panicked” when police arrived, believing Miller would “have [her] killed” if she left),
she came out and was arrested on outstanding warrants.
The jury also heard from five other witnesses who are relevant here. First, Fawne
Granby, the mother of Miller’s son, testified that in March 2017, she saw a woman
named “Emily” on the floor of Miller’s studio. Miller said that “she just wants more
dope.” Granby also heard Miller call Emily a “whore” and tell her that “she wasn’t out
there making enough money.” Once, Granby said, Emily wanted to leave with her, but
Miller “pulled her in the door” and said “You ain’t taking my ‘B’ with you.” Second, the
jury heard from Matthew Reminoski, a heroin addict who said that he lived at Miller’s
place for about a month starting in mid-June 2017. He described Miller as “very
controlling over [Breitzke] and her body and her money and just everything.” He heard
Miller instruct her to exchange sex for money, ask her if she had posted ads, and abuse
her. He said Breitzke (whom he also knew as “Diamond”) was “very, very unhappy”
and in “very bad shape” physically. Third, Seth Schumacher, another heroin addict,

3a

Case: 18-3114

Document: 55

Filed: 08/06/2020

No. 18-3114

Pages: 8

Page 4

testified that he saw both Daniels and Breitzke at Miller’s studio and heard Miller ask if
they had any dates, threaten to withhold drugs from Breitzke until she found a date,
and warn her that he would punch her “if she didn’t get him money.” Fourth, a police
officer who in late June 2017 responded to a call from Miller about a disturbance was
able to connect Miller to a phone number. Finally, a Backpage paralegal testified about
the 115 postings associated with that phone number.
Defense counsel cross-examined these witnesses to show inconsistencies in their
stories and motives to lie. When all is said and done, the defense theory was that the
two women were willing prostitutes, and so the essential element of coercion was
missing. The defense portrayed Daniels and Breitzke as drug addicts and sex workers
who “made up a story” about sex trafficking “to avoid going to prison”; the other
witnesses were also addicts facing criminal charges with reasons to fabricate events.
Breitzke, who testified that she was not allowed to leave Miller’s studio, admitted that
she stayed a few nights elsewhere and took a trip out of town. Daniels, who said that
Miller forced her to post sex ads daily starting in late February, admitted that once she
did not post for a week straight. The earliest ad in evidence was from late March.
Daniels also admitted that she did not tell authorities she was a trafficking victim until
two months after her arrest, when she was facing burglary and forgery charges. Granby
admitted to a forgery conviction and past drug use. Reminoski admitted that he has
felony convictions and several pending charges, that he sometimes lies (including to the
police about when he stayed at Miller’s), and that he spoke to federal authorities only
after receiving assurances that nothing he said could be used against him in court.
Schumacher acknowledged that he and Miller had had a falling out, that he was
cooperating with the government, and that he had cooperated in a past case for a lighter
sentence. Finally, the officer who responded to Miller’s call about a disturbance at the
building testified that he did not see anything “suspicious” there and agreed that he
likely would have followed up if he had suspected human trafficking.
In closing, defense counsel observed that, aside from one local officer who “saw
no signs of human trafficking” despite being “attuned to it,” the government did not
put any officers on the stand to testify about what they saw at Miller’s building.
Counsel conceded that a conviction was proper on the drug charge but argued for an
acquittal on the sex-trafficking counts.
The jury convicted Miller on all counts. Later, the court sentenced him to 20 years
in prison followed by 15 years’ supervised release.

4a

Case: 18-3114

Document: 55

Filed: 08/06/2020

No. 18-3114

Pages: 8

Page 5

C. Post-Trial Proceedings
After trial, Miller subpoenaed the records from the local undercover
investigation of the building where he lived, despite the fact that the government earlier
had assured him that they were unrelated to his case. The government turned over a file
that included Officer Mertz’s notes detailing his undercover efforts from April 28 to
June 30, 2017; about seven hours of recorded conversations, including several with
Miller; and two short videos, one of which shows Miller in the building’s parking lot.
Mertz’s notes reveal the following: During his first visit to the building on May 1,
he saw a man named “Seth” working on surveillance cameras. Mertz rented an office
on the first floor of the building on May 24 and visited the property eight times after
that, sometimes with another undercover officer. On May 25, he got a key from Miller,
and they talked about Miller’s work, his son, and a tattoo shop opening in the building.
On June 1, he overheard Miller tell “some female” to “keep ‘him’ waiting as long as
possible,” a possible reference to a man who drove into the parking lot soon after. Later
that day, Mertz called Miller and “talked with a female who goes by Diamond.” On
June 30, Mertz wrote that he walked up to the second floor and knocked on Miller’s
door to return a key; Miller came out, got the key, then went back inside.
Miller moved for a new trial on the sex-trafficking counts. See FED. R. CRIM. P. 33.
He argued that the government’s failure to disclose these reports before trial violated
due process and Brady. Noting that “[n]owhere in Mertz’s notes or in the audio
recordings is there any evidence that Miller was holding women against their wills for
prostitution,” he argued that the lack of incriminating evidence is itself exculpatory.
Had he received this evidence before trial, Miller said, he would have called the
undercover agents to testify that “they never observed Miller coerce anyone into sex
work.” Alternatively, he asked the court to order Roloff to turn over all of his case files
relating to the investigations of Miller. The government responded that the undercover
evidence was not favorable, material, or “suppressed” under Brady.
The district court denied the motion, ruling that no Brady violation had occurred
because the records were neither favorable nor material. Although the government
“[c]onced[ed]” that it had not produced the records before trial, the court found that the
evidence was not relevant: Mertz never visited the building while Daniels was being
trafficked; he did so only a few times during Breitzke’s ordeal; and he never claimed to
have entered Miller’s studio. Accordingly, “the fact that [Mertz] saw nothing that he
deemed incriminating or worthy of a report does not render the information he learned

5a

Case: 18-3114

Document: 55

Filed: 08/06/2020

No. 18-3114

Pages: 8

Page 6

there ‘favorable.’” Further, the court explained, a defendant may not seek to establish
innocence on one occasion by the absence of criminal acts on another. Moreover, some
of the reports could be seen as inculpatory, because they corroborated testimony
placing certain people on the scene. The court concluded that given “the strength and
amount of the government’s evidence” at trial, “testimony from Mertz that he and his
fellow officers saw no evidence of sex trafficking … would not have had a reasonable
probability of changing the verdict.” Nonetheless, out of an abundance of caution, the
district court ordered the government to produce Roloff’s case files for defense
counsel’s review. After that review, the court found “no new basis” for a Brady violation
and denied the motion for a new trial.
II
Miller appeals the district court’s denial of his motion for a new trial, a decision
that we review for an abuse of discretion. United States v. Ballard, 885 F.3d 500, 504
(7th Cir. 2018). To obtain a new trial based on a Brady violation, Miller had to show that
the undercover records were (1) willfully or inadvertently suppressed by the
government, (2) favorable to him, either because they are exculpatory or impeaching,
and (3) material to the defense, meaning there is a reasonable probability of a different
result had they been disclosed before trial. Banks v. Dretke, 540 U.S. 668, 691, 699 (2004).
A. Suppression
The district court implicitly concluded that the government, by failing to disclose
the investigatory records in time for Miller to use them at trial, suppressed them within
the meaning of Brady. See Carvajal v. Dominguez, 542 F.3d 561, 567 (7th Cir. 2008). The
government insists that Miller knew about the records and, with diligence, could have
obtained them before trial. This strikes us as a stretch: when Miller asked about the
investigation before trial, the government’s response––that the undercover work was
“related to another case” and that there were “no reports” to turn over—obfuscated the
nature of the investigation. See United States v. Salem, 578 F.3d 682, 685 (7th Cir. 2009)
But we need not dwell on this point, because in order to prevail, Miller must meet all
three criteria identified in Banks, and as we now explain, he has not.
B. Favorability
We first address the question whether the missing evidence was favorable to
Miller, either for his case-in-chief or for impeachment. Miller contends that the district

6a

Case: 18-3114

Document: 55

Filed: 08/06/2020

No. 18-3114

Pages: 8

Page 7

court “applied the wrong legal standard” because it wrongly thought that he wanted to
use the undercover reports as favorable character evidence. In fact, he wanted to use
them to bolster his argument that “had the witnesses’ tale occurred certain facts would
have been witnessed by any bystander,” including undercover agents. The lack of
observations, by this alchemy, turns into favorable evidence. But the district court did
not misconceive Miller’s argument; it just disagreed with his contentions about the
significance of not detecting criminal activity.
Miller next argues that the district court unreasonably found that the reports
were not favorable to him. But we share the district court’s assessment. It is notable that
the undercover investigation barely overlapped with Miller’s trafficking activities.
Mertz first visited the building more than two months after Daniels left the property,
and so he could not have seen trafficking involving her. And although the investigation
partly coincided with Miller’s trafficking of Breitzke, Mertz was at the property only
seven times then, and he approached Miller’s second-floor studio (the site of the
trafficking) only once, in late June, after the trafficking had concluded. His opportunity
to observe any alleged trafficking was thus limited at best. Nothing in Mertz’s notes or
the audio recordings show that Miller did not engage in sex trafficking. In arguing that
the absence of incriminating evidence is itself exculpatory, Miller assumes that if forced
prostitution was occurring there, the undercover investigators would have detected it.
But Miller provides no reason to believe that Mertz, who only periodically visited the
building, was there at the key moments, such as when a “date” arrived or left, or when
Breitzke tried to leave. (It also is not evident that the officers were “looking for evidence
of human trafficking,” as Miller asserts, or for something else.) We also agree with the
district court that some of these records are actually inculpatory because they partially
corroborate testimony from government witnesses. For instance, Mertz noted the arrival
of a man who drove up shortly after Miller told a woman to “keep him waiting as long
as possible,” which is consistent with testimony describing Miller’s trafficking activities.
Mertz also saw Miller, “Seth” (presumably Schumacher), and “Diamond” (Breitzke) at
the building during the relevant time.
C. Materiality
Even if the evidence were favorable to Miller, he still must show materiality.
Determining materiality requires the court to assess whether there is “a reasonable
probability that, had the evidence been disclosed, the result of the proceeding would
have been different.” Turner v. United States, 137 S. Ct. 1885, 1893 (2017) (internal
citations and quotation marks omitted). This standard is met when “the favorable

7a

Case: 18-3114

Document: 55

Filed: 08/06/2020

No. 18-3114

Pages: 8

Page 8

evidence could reasonably be taken to put the whole case in such a different light as to
undermine confidence in the verdict.” Kyles v. Whitley, 514 U.S. 419, 435 (1995).
Miller argues that the district court considered only the government’s evidence
when assessing materiality and ignored how the withheld evidence “would have
bolstered the defense’s argument that there was no support for the witnesses’ stories.”
This argument fails for two reasons. First, materiality is “considered collectively, not
item by item.” Kyles, 514 U.S. at 436. Nothing requires a district court exhaustively to
discuss both sides of the case to prove that it considered everything. We will not
assume that the district court failed to consider the entire record simply because it did
not address each arguable weakness in the government’s case. See United States v.
Morales, 746 F.3d 310, 316 (7th Cir. 2014); United States v. Lewis, 567 F.3d 322, 328 (7th
Cir. 2009).
Second, and more fundamentally, Miller’s argument that there was nothing in
the record to corroborate the witnesses’ stories minimizes much of what the jury heard.
Among other evidence, the jury heard directly from both victims, who told similar tales
of coercion and abuse, and from several eyewitnesses, who largely backed up the
victims’ accounts. To be sure, most of the witnesses were drug addicts facing criminal
charges, and their stories are not fully consistent. But defense counsel hammered these
points at trial (in addition to noting that an officer dispatched to the property did not
suspect human trafficking), and the jury nonetheless believed the key elements of the
witnesses’ stories. The district court thus reasonably ruled that it was “highly unlikely”
the jury would have reached a different verdict if it had heard undercover agents testify
about what they did not observe at the building. That determination holds significant
weight, as the trial court is “best equipped to ‘develop[] a feel for the impact of the
witnesses on the jury—and how that impact might have been different had the
government played by the rules’ and disclosed the suppressed evidence.” Ballard, 885
F.3d at 505 (citation omitted). Viewing the record as a whole––including the weaknesses
that Miller has identified––we see nothing unreasonable in the district court’s ruling.
We therefore AFFIRM the judgment.

8a

Case: 3:17-cr-00082-wmc Document #: 153 Filed: 08/30/19 Page 1 of 2

9a

Case: 3:17-cr-00082-wmc Document #: 153 Filed: 08/30/19 Page 2 of 2

10a

Case: 3:17-cr-00082-wmc Document #: 148 Filed: 07/22/19 Page 1 of 20

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
UNITED STATES OF AMERICA,
Plaintiff,

OPINION & ORDER

v.
17-cr-82-wmc

HARRY MILLER,
Defendant.

On May 23, 2018, a jury convicted defendant Harry Miller of two counts of sex
trafficking, in violation of 18 U.S.C. § 1591(a)(1), as well as one count of maintaining a
drug house in violation of 21 U.S.C. § 856(a)(1). Before the court are two motions: (1)
Miller's motion under Fed. R. Crim. P. 34 for arrest of judgment on the ground that the
government failed to prove that the crimes of conviction occurred in the Western District
of Wisconsin (dkt. #128); and (2) Miller's motion under Fed. R. Crim. P. 33 for a new
trial on the two sex trafficking counts on the ground that the government withheld
evidence favorable and material to the defense in violation of the due process clause and
Brady v. Maryland, 373 U.S. 83, 87 (1963) (dkt. #127). Hyperbole aside, defense counsel
had reason to be concerned by the dribs and drabs nature of the government’s production
of Brady materials in this case. As has happened in other prosecutions on which the U.S.
Attorney’s Office’s production of these materials depends on state law enforcement, the
last-minute disclosure of an undercover operation in the same building as defendant’s
criminal activities was particularly jarring, even shocking, to a Federal Defender’s Office
used to a good faith, open file policy. Indeed, as reflected by the allowance of a deposition
of Dane County Detective Thomas Roloff’s knowledged of that operation on the morning

11a

Case: 3:17-cr-00082-wmc Document #: 148 Filed: 07/22/19 Page 2 of 20

of the first day of trial, this court was also concerned about the apparent failure to disclose
this operation sooner.
The problem with defendant’s outrage to this complete production is that the
withheld information is not nearly so earth-shattering, nor even relevant, to the crimes the
defendant was shown to have committed in a part of the building to which no one involved
in the undercover operation even had access and largely during a time before that operation
was even up and running. Indeed, defendant does not argue this late produced evidence
would undermine the government’s overwhelming evidence that the defendant was
running a drug house behind closed doors at that building, unbeknownst to the undercover
agents, but rather that the undercover operation’s failure to detect defendant’s simultaneous
coerced prostitution of two victims strung out on heroin supplied by defendant is somehow
material to proving it did not happen. That argument is almost absurd on its face.
Regardless, since the evidence at trial established all of defendant’s criminal activity
occurred in a suite of an office building here in Madison, WI, where the trial in this case
was held, there is no merit to defendant’s first motion, claiming a failure to prove the
crimes occurred in this district. Nor, although additional discussion is appropriate, has
defendant met his burden of showing that the government withheld evidence favorable and
material to the defense. For these and other reasons set forth below, the court will deny
both motions, except to allow defendant’s counsel access to Detective Roloff’s case files in
the unlikely event something material and exculpatory might have been overlooked.

2
12a

Case: 3:17-cr-00082-wmc Document #: 148 Filed: 07/22/19 Page 3 of 20

BACKGROUND
A. Pretrial Proceedings
On January 3, 2018, a grand jury returned a superseding indictment charging
defendant Miller with two counts of sex trafficking and one count of maintaining a drug
house. (Dkt. #24.) Specifically, Miller was accused of maintaining a drug house in an
upper office suite on the northern portion of the second floor of 1502 Greenway Cross, a
commercial building in Madison, Wisconsin. The victims of the alleged sex trafficking
were identified as Alishayna Daniels and Emily Breitzke. The indictment charged Miller
with trafficking Daniels from March 10 to April 21, 2017, and with trafficking Breitzke
from March to June 2017.1
After Miller was indicted, the government provided Miller's lawyers with nearly
1,800 documents, some surveillance videos and a phone dump, and then supplemented
that discovery with an additional 200+ documents as the trial date approached. From the
discovery, Miller learned that Madison Police Department Officer David Mertz, working
undercover, had been conducting a parallel investigation of Miller and had paid several
visits to 1502 Greenway Cross during the time frame described in the indictment.2
On May 17, 2018, four days before trial, Miller filed a motion to continue the trial,
alleging that the government had recently provided grand jury transcripts, witness
interview reports, and proffer letters that disclosed five new witnesses previously unknown

Although the indictment charged Miller with trafficking Daniels until April 21, 2017, both Daniels
and her mother testified that the trafficking ended on March 21, 2017.
1

The record does not disclose why the Madison police were conducting this investigation, although
it appears Miller was a target.
2

3
13a

Case: 3:17-cr-00082-wmc Document #: 148 Filed: 07/22/19 Page 4 of 20

to the defense. (Dkt. #69.) The defense also expressed concern that the case agent,
Detective Thomas Roloff, had failed to disclose potential Giglio or Brady material. The
court declined to postpone the trial but ruled that the defense would be allowed to question
Detective Roloff under oath before beginning the first day of trial. (Dkt. #70.) Moreover,
the day after that ruling, May 18, 2018, counsel for the government forwarded to
defendant’s counsel an email received from Roloff about the undercover investigation at
Greenway Cross. In it, Roloff represented that: the undercover work was related to
another case, which "never really took off"; Madison Police Officer Mertz had only been
there on a few occasions during the time period of the indictment"; Officer Mertz did not
gather any information of substance; and, therefore, he did not write any reports regarding
his undercover work.
During its pretrial questioning of Detective Roloff, defense counsel asked about
Mertz's undercover investigation. Roloff testified that he did not recall precisely how many
times Mertz visited the Greenway Cross property. Consistent with the May 18 email,
however, Roloff testified that Mertz did not generate any reports related to his
investigation, nor had he. However, Roloff did acknowledge talking to Mertz about his
activities, recalling only that Mertz
said there was nothing that took place that warranted a report,
that he saw people there but didn't have a lot of contact with
people. We'd talk about who he saw or something like that but
never any criminal activity.
(Roloff Testimony (dkt. #94) 22, lines 9-12.) Roloff also recalled Mertz mentioning
Miller, but did not recall Mertz saying anything about either of the two victims, Daniels
or Breitzke. (Id., lines 17-21.) Finally, Roloff testified that the only surveillance video he
4
14a

Case: 3:17-cr-00082-wmc Document #: 148 Filed: 07/22/19 Page 5 of 20

was aware of showed Miller walking across the parking lot, but he was unsure who took
that video and had not downloaded the contents of the surveillance video cameras that
were at the Greenway Cross property. (Id. at 23, lines 4-18.)
B. Trial
The government provides a detailed exegesis of the trial evidence in its brief
opposing a new trial (dkt. #140), which Miller concedes is accurate (Reply Br. (dkt. #146)
at 10), and the court adopts for purposes of considering Miller’s pending motions. By way
of brief summary, the government presented the testimony of the two victims, Breitzke
and Daniels, who testified that they were heroin addicts and homeless when they started
living with Miller in approximately March 2017 on the upper floor of a commercial
building located at 1502 Greenway Cross, where he was the on-site maintenance worker.
At that time, Miller was 58 years old, while Breitzke and Daniels were 29 and 23
respectively. At trial, each testified that:
•

they depended on Miller to provide them with heroin and a place to live;

•

they posted ads, using Miller's cellular or wi-fi phone, on Backpage.com and
performed sexual acts for money at his request, often multiple times a day;

•

Miller berated them, threatened to withhold heroin until they became sick from
withdrawal, and at times physically abused them until they arranged a "date;"

•

Miller would collect the money paid by the Johns;

•

and during the time they stayed with Miller, they observed him supply heroin and
crack to multiple people at the studio on Greenway Cross.

Daniels left Miller's residence on March 21, 2017, when her mother came with police to
get her. Breitzke left Miller's residence on June 16, 2017, when she was arrested on
outstanding warrants.
5
15a

Case: 3:17-cr-00082-wmc Document #: 148 Filed: 07/22/19 Page 6 of 20

Breitzke’s and Daniel's testimony was corroborated by Fawne Granby, who was
Miller's ex-wife and a recovering addict herself. In March 2017, Granby relapsed and went
to Miller's studio at Greenway Cross on a number of occasions to obtain and use drugs.
While there, Granby saw Breitzke sick and lying on the kitchen floor, but was told by
Miller to ignore her because "she just wants more dope." Granby observed Miller being
very mean to Breitzke and berating her for not making enough money. When Breitzke
attempted to leave with Granby on one occasion, Miller physically restrained Breitzke,
telling Granby that she wasn't taking his "B."
Alishayna Daniels' mother, Mary Daniels, also testified that her daughter struggled
with heroin addiction for years and was homeless in January 2017. In March 2017, Mary
brought her daughter's dog, Hondo, to Alishayna at Miller's building on Greenway Cross.
On March 21, 2017, Alishayna called her mother from Miller's apartment to ask her to
come and get her dog, because neither the dog nor she were safe staying there. After
contacting the City of Madison police, Mary Daniels went to the Greenway Cross building
and called her daughter to tell her to come outside. Upon learning that the police were
there as well, Mary Daniels testified that Alishayna became very upset and said you have
no idea what you have done, "they're going to kill [me]." Despite then refusing to come
out, Mary Daniels and the police were eventually able to enter the building when Miller
came to the front door to get a food delivery. Going up the stairs to the office studio where
Alishayna was staying, Mary Daniels spoke to her through the closed door. After 45
minutes, she was able to coax her daughter to come out, at which point Alishayna was
taken into custody by the police.
6
16a

Case: 3:17-cr-00082-wmc Document #: 148 Filed: 07/22/19 Page 7 of 20

Two other heroin addicts who stayed at 1502 Greenway Cross while Breitzke and
Daniels were there, Matthew Reminoski and Seth Schumacher, also provided
corroborating testimony.

Reminoski testified that:

Miller provided drugs and

paraphernalia to him and the others in the studio; Breitzke was also known as "Diamond";
and defendant controlled her life, including her money, body, and drugs. More specifically,
Reminoski heard Miller instruct Breitzke to post on Backpage and do "dates," which she
did from five to ten (or more) times a day. Reminoski testified that Miller also asked him
to take Breitzke to some of her so-called “dates,” which he did under strict instructions
from Miller to take her straight to the date and right back, not stopping anywhere else.
Breitzke was then required to tell Miller exactly how much money she got for each date,
although she tried to hide it at times. Reminoski further testified that he saw Miller use
physical violence against Breitzke. Schumacher provided similar testimony, stating that
he heard Miller asking Daniels if she had a date set up and verbally berating Breitzke or
threatening to withhold heroin from her until she arranged a date.
The government also presented testimony from Detective Heidi Gardner, who
identified evidence collected from a trash collection at 1502 Greenway Cross, including
drug paraphernalia and a note from Miller stating he was out getting a "wake up" for
Breitzke. Detective Gardner’s testimony also escorted in photos taken during execution of
a search warrant on the same property, which included images of drug paraphernalia and
a note written by Miller providing a telephone number at which he could be contacted.3

Reminoski identified that same number as one used by Miller while Reminoski was staying at
1502 Greenway Cross.
3

7
17a

Case: 3:17-cr-00082-wmc Document #: 148 Filed: 07/22/19 Page 8 of 20

Officer Gregory Sosoka next testified that on June 24, 2017, he was dispatched to
1502 Greenway Cross based on a call from Miller to law enforcement. During that contact,
Miller had provided his phone number of 608-302-6092 and said that he was the property
manager at the address.

Sosoka testified that while responding to the call at 1502

Greenway Cross, he did not see evidence of drug dealing or human trafficking, and that he
would likely have followed up on it if he had. Finally, a group of technical witnesses were
called by the government. Backpage paralegal, Issa Martin, testified about the mechanics
of posting ads on Backpage.com, and verifying ads that were posted from several email
accounts, containing several different phone numbers associated with Miller. A digital
forensic examiner, Christine Byers, testified about evidence obtained from a cell phone
seized during the search warrant executed at 1502 Greenway Cross, correlating the phone
and the phone number with Miller. Images from the phone were also tied to Backpage.com
ads. Last, the government presented testimony from James Sauer, an addiction expert,
who testified about the effects of heroin, its addictive properties and triggers, the
debilitating symptoms of heroin withdrawal, experiences of relapse, and other general
information related to heroin and opioid use and addiction.
The defense called no witnesses, and during closing argument, defense counsel
conceded that a conviction was warranted on the third count for maintaining a drug house,
but argued that there was insufficient evidence to convict on the two sex trafficking counts.
After deliberating, the jury returned a guilty verdict on all three counts.
C. Evidence Discovered Post-Trial
After trial, defense counsel was permitted to subpoena the Madison Police
8
18a

Case: 3:17-cr-00082-wmc Document #: 148 Filed: 07/22/19 Page 9 of 20

Department for Officer Mertz's notes from his Greenway Cross undercover investigation.
Beginning more than a month after Daniels managed to leave the drug house, Mertz's 2017
notes document the following:
April 28: Acting under the pretense that he was starting a
cleaning business with his girlfriend, Mertz called the building
manager at 1502 Greenway Cross, Patty Caputo, to get pricing
information for renting a unit.
May 1, 1:30 p.m.: Mertz met Caputo at Greenway Cross for
a walk-through of the rental unit and the property generally.
On that date, he observed "Seth" inside the building "working
on interior/exterior cameras on [a] tablet."
May 15: Mertz called Caputo about finalizing the rental
agreement.
May 19:
requested.

Mertz emailed Caputo information she had

May 24: Mertz, accompanied by DEA Special Agent Jessica
Meier posing as his girlfriend, moved into their unit 101H.
May 25: Mertz and Meier returned to the property, where
Mertz speaks to Miller for the first time. Mertz surreptitiously
recorded over 46 minutes of audio, including a 14-minute
conversation with Miller about keys for the unit and additional
storage space.
June 1: Mertz and Meier returned and went downstairs to
check on the storage locker. When they came up, they heard
Miller in the first floor hallway "talking w/some female upstairs"
and telling her to "keep him [unreadable] as long as
[unreadable]." Mertz got Miller's attention as he was hurrying
upstairs; Miller said he would fix the storage locker door that
night and proceeded upstairs. As Mertz and Meier are leaving,
they observed "IL plate B/M driver pull in when we left . . .
possibly who Harry was telling female to delay." A short while
later, Mertz got a call from Miller's phone; when he returned
the call, he "talked w/female who goes by Diamond. Told her
who I was & why I called but it didn't seem to register w/her."

9
19a

Case: 3:17-cr-00082-wmc Document #: 148 Filed: 07/22/19 Page 10 of 20

June 6: Mertz and Meier returned to Greenway Cross and
discovered the key to the storage door does not work. Mertz
called Miller and spoke with a female who got Miller on the
phone; Miller then met with Mertz and Meier. Mertz recorded
over 90 minutes of audio conversations had with Miller and
others on the property.
June 8: Mertz and Meier returned. The storage locker still
wasn’t fixed so Mertz called Miller. A female answered Miller's
phone and then handed it to Miller, who agreed to meet Mertz
to get the issue sorted out. When Miller and Mertz met in
person later, Mertz recorded about 9 minutes of audio. Miller
told Mertz he has a "wifi" phone.
June 15: Mertz returned, this time with ATF Special Agent
Michael Aalto, posing as Mertz's friend "Chino." Mertz
recorded 82 minutes of audio in which he introduced Miller to
Chino, and conversed with others on the property. Mertz's
note from that day includes a reference at the top indicating
that "Emily" was taken into custody that day.
June 21: Mertz visited the property; Aalto joined later on his
bike. Mertz recorded 68 minutes of audio, which included a
conversation that Mertz and Aalto had with Miller about
Mertz's business and the property generally.
June 28: Mertz and Alto visited the property. Mertz recorded
35 minutes of audio, which captured a conversation between
Mertz, Aalto and Miller about replacing lightbulbs and
modifications to the rental unit.
June 30: Mertz visited the property alone. His notes state
"Got hallway video for search warrant." He went up to Miller's
studio, knocked on the door, and Miller came out. Mertz
returned a storage locker key and Miller went back inside his
studio. Mertz left after 30-35 minutes.
(Dkt. #138, Ex. A.)
In addition to Mertz’s notes, the police department's response to the subpoena
included the referenced audio recordings, totaling more than 7 hours, plus a few photos
and videos. Defendant also obtained: (1) emails showing that Detective Roloff was aware
10
20a

Case: 3:17-cr-00082-wmc Document #: 148 Filed: 07/22/19 Page 11 of 20

of Mertz's activities at the property, handled a rent receipt for the unit, and asked an agent
to run tolls on defendant's phone; (2) Roloff's notes from the prosecution team's May 17,
2018, meeting with the Building Manager, Patty Caputo; and (3) Breitzke's rap sheet,
which contains a redacted notation entered on May 10, 2017.
OPINION
I. Motion for Arrest of Judgment
Defendant's motion for arrest of judgment under Fed. R. Crim. P. 34 requires little
discussion. Rule 34 provides that the court "must arrest judgment if the court does not
have jurisdiction of the charged offense." Defendant claims that the government failed to
prove that the crimes of conviction occurred in the Western District of Wisconsin because:
(1) "only three witnesses (Issa Martin, Alishayna Daniels, and Emily Breitzke) reference
"Madison, Wisconsin"; and (2) some witnesses referenced "1502 Greenway Cross" in
"Madison," but no one referenced "1502 Greenway Cross in Madison, Wisconsin" or
established that Madison is in the Western District of Wisconsin.
Since venue is not an element of the offense, the government need only establish
venue by a preponderance of the evidence, not beyond a reasonable doubt. United States
v. Muhammad, 502 F.3d 646, 652 (7th Cir. 2007). More importantly, venue need not be
shown by direct evidence; it may be proven by the evidence as a whole or by circumstantial
evidence.

United States v. Mendell, 447 F.2d 639, 641 (7th Cir. 1971).

"Venue is

established where the testimony justifies the reasonable inference that the violation
occurred at the place alleged in the indictment." Id. (citations omitted).
The testimony of the government's witnesses sufficiently established venue. As
11
21a

Case: 3:17-cr-00082-wmc Document #: 148 Filed: 07/22/19 Page 12 of 20

detailed in the government's brief, there were numerous references at trial connecting
defendant's activities to 1502 Greenway Cross, and Detective Garner testified that 1502
Greenway Cross was in Madison. Indeed, given that the trial took place at the Western
District’s courthouse in Madison, Wisconsin, and Greenway Cross is a fairly well known,
commercial area next to the city’s beltline, it would be shocking if the jury concluded
anything other than that the crimes occurred in the Western District.

Moreover, as

defendant acknowledges, at least three witnesses referred to Madison as being located in
Wisconsin. Viewed as a whole, the evidence amply supported a finding that defendant's
crimes took place at 1502 Greenway Cross in Madison, Wisconsin.
The court further takes judicial notice that Madison is in the Western District of
Wisconsin. Accord United States v. Cobb, 397 F.2d 416, 419 (7th Cir. 1968) ("Where, as
here, the geographical location where offenses were committed has been sufficiently
proved, and it can be judicially noticed that such location is within the appropriate district,
venue has been sufficiently proved.").

Accordingly, defendant's motion for arrest of

judgment is denied.

II. Motion for New Trial
Defendant contends he is entitled to a new trial because the government failed to
disclose Officer Mertz's notes and audio recordings. In Brady v. Maryland, 373 U.S. 83, 87
(1963), the Supreme Court held “that the suppression by the prosecution of evidence
favorable to an accused upon request violates due process where the evidence is material
either to guilt or to punishment, irrespective of the good faith or bad faith of the
12
22a

Case: 3:17-cr-00082-wmc Document #: 148 Filed: 07/22/19 Page 13 of 20

prosecution.”

373 U.S., at 87.

Thus, to show a Brady violation, a defendant must

demonstrate: (1) the evidence must have been suppressed by the government, either
willfully or inadvertently; (2) the evidence at issue was favorable to his defense either
because it had exculpatory or impeachment value; and (3) the evidence was material. Banks
v. Dretke, 540 U.S. 668, 691 (2004). Strickler v. Greene, 527 U.S. 263, 281-82 (1999).
Conceding that Mertz's notes and audio recordings were not provided to defendant before
trial, the government argues that defendant's motion must be denied because the evidence
is neither favorable nor material. The court agrees.
A. The Evidence is Not Favorable
Defendant argues that the withheld evidence is exculpatory because "[n]owhere in
Mertz's notes or in the audio records is there any evidence that Miller was holding women
against their wills for prostitution." (Def. Br. (dkt. #13) at 13.) At the outset, it is
important to clarify the charges defendant faced. The jury was instructed that it could
convict defendant of violating 18 U.S.C. § 1591(a)(1) if it found that he knowingly
recruited, enticed, harbored, provided, obtained, or maintained by any means [the victims]
in and affecting interstate commerce, knowingly, and in reckless disregard of the fact that
force, threats of force, coercion, and any combination of such means, would be used to
cause [the victims] to engage in a commercial sex act." Contrary to defendant's argument,
he was not charged with "holding women against their wills for prostitution" or kidnapping.
Indeed, the jury heard evidence that defendant kicked Daniels and Breitzke each out of

13
23a

Case: 3:17-cr-00082-wmc Document #: 148 Filed: 07/22/19 Page 14 of 20

his studio at least once.4 Yet it still found him guilty.
It is also important to place the timing of Mertz's brief investigation of the
defendant’s activities in the context of the government's proof.

Defendant began

prostituting out Daniels and Brietzke in March of 2017. Daniels left defendant's residence
on March 21, 2017; Breitzke was arrested and taken to the hospital on June 15, 2017. In
contrast, Mertz's first investigative note is dated April 28, 2017, his first visit to 1502
Greenway Cross was on May 1, 2017, and his first contact with defendant was not until
May 25, 2017. Thus, Mertz's first contact with defendant was not only more than two
months after Daniels left 1502 Greenway Cross for good, but two-and-a-half months after
defendant began trafficking Breitzke in March 2017 and only three weeks before she left
as well.5 Accordingly, Mertz had no information -- inculpatory or exculpatory -- about
defendant or his activities at 1502 Greenway Cross for the entire time Daniels was
trafficked or for most of the time Breitzke was trafficked.
As for the five times that Mertz visited 1502 Greenway Cross and spoke with
defendant when Breitzke was there, the fact that he saw nothing that he deemed
incriminating or worthy of a report does not render the information he learned there
"favorable." Mertz did not determine that defendant was not engaged in sex trafficking; he
just did not notice anything during his relatively brief visits suggesting that he was, which

4(Breitzke

Testimony (dkt. #95) at 65 (describing episode when defendant "threw me out and
locked the door" and she slept in the building's bathroom)); Daniels Testimony (dkt. #95) at 12526 (describing incident when defendant dragged her out of the studio and locked her out).)
Even if defendant's trafficking of Daniels ended on April 21, 2017, as charged in the indictment,
Mertz's first contact with defendant was still more than one month later.
5

14
24a

Case: 3:17-cr-00082-wmc Document #: 148 Filed: 07/22/19 Page 15 of 20

is hardly surprising. Mertz was only at 1502 Greenway Cross seven times between May 1
and June 15 (when Breitzke left), and it appears his longest visit was about 90 minutes,
during which he interacted with others on the property, not just defendant. Mertz did not
go up to defendant's studio until after Breitzke had left, and even then he did not go inside.
Instead, he merely handed defendant a key and left.
Whatever marginal relevance this evidence arguably would have had, if any, it is not
exculpatory. “A defendant may not seek to establish his innocence . . . through proof of
the absence of criminal acts on specific occasions.” United States v. Scarpa, 897 F.2d 63,
70 (2d Cir. 1990) (rejecting claim that government had to produce audio tapes where
defendant claimed “that the absence of incriminating statements on the tapes is relevant
in the sense that it tends to disprove the government's theory”); see also United States v.
Borda, 941 F. Supp. 2d 16, 24 (D.D.C. 2013) ("[T]he absence of incriminating information
in a report cannot be turned into an affirmative conclusion that it is “favorable” to the
Defendants and, therefore, cannot constitute Brady material."); United States v. Ellisor, 522
F.3d 1255, 1270 (11th Cir. 2008) (“The fact that Ellisor purportedly produced other
shows does not bear on his intent to defraud with respect to the Christmas show, and is
therefore irrelevant.”); United States v. Williams, 205 F.3d 23, 34 (2d Cir. 2000) (rejecting
claim “that the district court improperly excluded . . . evidence that during two [prior] trips
to Jamaica . . . [defendant] had apparently not engaged in drug activity”); United States v.
Marrero, 904 F.2d 251, 260 (5th Cir. 1990) (“The fact that Marrero did not overcharge in
every instance in which she had an opportunity to do so is not relevant to whether she, in
fact, overcharged as alleged in the indictment.”).
15
25a

Case: 3:17-cr-00082-wmc Document #: 148 Filed: 07/22/19 Page 16 of 20

As the government points out, a defendant on trial for felon in possession of a gun
would not be permitted to call a witness to testify about all the times he or she saw the
defendant without a gun, nor would a defendant on trial for child pornography be allowed
to call a witness to testify about all the times he or she did not see the defendant looking
at child pornography during the relevant time period. By comparison, it is questionable
whether defendant in this case would have been permitted to call Mertz (or any other
witness) to testify about all of the times he or she saw defendant not running a drug house
or trafficking women, especially since defendant’s illegal activities all took place within his
commercial studio on the second floor, to which neither Mertz (nor other witnesses noted
by Mertz) ever claimed to have accessed.6
Finally, although neither Mertz nor the other officers saw anything during their
visits to Greenway Cross that they deemed incriminating or worthy of a report at the time,
some of Mertz's observations are actually inculpatory.

Mertz's notes not only place

defendant at the location and time of the trafficking, but place Breitzke (“Diamond”) with
him.

The evidence also corroborates testimony by the government witnesses that

defendant was the maintenance man at the building at 1502 Greenway Cross and that he
had a wi-fi phone. Even Mertz's observation of a black male driving up in a car with Illinois

In fairness, building manager Patty Caputo likely would have had access to the studio, but there
is no evidence she ever attempted to access it. Thus, contrary to defendant's argument, the fact
that she did not tell the prosecution team when they interviewed her that she observed any sex
trafficking at 1502 Greenway Cross is not exculpatory. (See Def.'s Br. (dkt. #138) at 15 (asserting
that Roloff's notes from prosecution team's interview with Caputo before trial do not "reflect any
suggestion that Caputo observed any sex trafficking at Greenway Cross")). If anything, the notes
indicate that Caputo spent little time at Greenway Cross, leaving its operation and maintenance
largely to the defendant.
6

16
26a

Case: 3:17-cr-00082-wmc Document #: 148 Filed: 07/22/19 Page 17 of 20

license plates right around the same time he heard defendant telling a female up in the
studio apartment to delay him is arguably consistent with Breitzke's description of her
sexual activity and defendant's control over it. Accordingly, Mertz's notes and audio tapes
from his investigation at Greenway Cross are not favorable to the defense.

B. Even if Favorable, the Evidence is not Material
Assuming, arguendo, that Mertz's notes and audio recordings are somehow
"favorable" to defendant, their suppression violates due process only if the information was
material to defendant's guilt. Brady, 373 U.S. at 87. Evidence is material under Brady
when “the cumulative effect of the new evidence creates a reasonable probability of a
different result at trial." Kyles v. Whitley, 514 U.S. 419, 434 (1995). "The reasonable
probability standard for materiality of suppressed evidence is less rigorous than a
preponderance of the evidence standard[.]" Goudy v. Basinger, 604 F.3d 394, 399 (7th Cir.
2010) (citing Kyles, 514 U.S. at 434). Thus, "the defendant need not demonstrate that
after discounting the inculpatory evidence in light of the undisclosed evidence, there would
not have been enough left to convict." Kyles, 514 U.S. at 435. The test instead is whether
the "favorable evidence could reasonably be taken to put the whole case in such a different
light as to undermine confidence in the verdict.” Id.
That standard has not been met here. As an initial matter, testimony from Mertz
that he and his fellow officers saw no evidence of sex trafficking when they interacted with
defendant on five brief visits to Greenway Cross near the end of the alleged trafficking of
Breitzke would not have had a reasonable probability of changing the verdict. Moreover,
17
27a

Case: 3:17-cr-00082-wmc Document #: 148 Filed: 07/22/19 Page 18 of 20

the government's evidence at trial was overwhelming, consisting of: (1) the testimony of
the victims; (2) the testimony of Matthew Reminoski, Seth Schumacher, and Fawne
Granby, all of whom who spent a significant amount of time with defendant and the
victims inside his studio at 1502 Greenway Cross and whose accounts of what transpired
there matched that of the victims; (2) the testimony of Mary Daniels, whose account
corroborated her daughter's testimony about her attachment to her dog and Daniels' fear
of defendant; (3) physical evidence obtained from defendant's trash that corroborated the
extensive drug use in the studio described by the victims, defendant's phone number, and
defendant's role as heroin provider to the victims and others; (4) evidence linking
Backpage.com solicitations for encounters with the victims to phone numbers associated
with the defendant, including images posted to Backpage that originated from defendant's
phone; and (5) expert testimony describing heroin's powerful addictive properties and the
harrowing effects of its withdrawal.
Given the strength and amount of the government's evidence, it is highly unlikely
that the outcome would have been different had Mertz and the other undercover officers
been called to testify about their visits to 1502 Greenway Cross, and more particularly,
what they did not observe during those visits without access to the upstairs studio where
the defendant maintained his drug house and some of the prostitution took place. In fact,
it is equally likely that their testimony about what they did observe -- namely, a woman
who went by "Diamond" (a/k/a Breitzke) answering defendant's phone, defendant's
ownership of a wi-fi phone, his status as a maintenance man, and defendant's conversation
with a female upstairs as an out-of-state vehicle pulled into the parking lot -- would have
18
28a

Case: 3:17-cr-00082-wmc Document #: 148 Filed: 07/22/19 Page 19 of 20
contributed to a guilty verdict. Indeed, perhaps most telling to the lack of any
materiality is the fact that the proof of defendant’s running a drug house from his studio
was so overwhelming that defendant’s counsel did not even attempt to dispute it in closing
arguments, yet Mertz and the other officers also apparently saw no evidence of this activity
during their visits to 1502 Greenway Cross. For much the same reason, Mertz's notes and
audio recordings were not material simply because there was no obvious evidence of
defendant’s sex trafficking.
C. An Evidentiary Hearing is Unnecessary
As an alternative to granting a new trial, defendant asks the court to order Detective
Roloff to turn over his "case file" for both investigations (the sex trafficking and the
undercover operation Mertz worked on) and to hold an evidentiary hearing. The request
for an evidentiary hearing is denied. Defendant had the opportunity before trial to conduct
a thorough examination of Detective Roloff and question him about the undercover
operation at 1502 Greenway Cross. Defendant also obtained Officer Mertz's notes from
that operation after trial.
Defendant goes to great lengths to show that Detective Roloff was not forthcoming
about all of the details of the investigation, but defendant's characterization of Detective
Roloff's testimony is neither fair nor accurate, and the assertion that Mertz's notes may
not be complete rests on nothing more than rank speculation.7 Further, having read the

7Indeed,

defense counsel's accusations of obfuscation, fraud, and perjury on the part of Detective
Roloff and, albeit to a lesser extent, criticism of the Assistant United States Attorney who
prosecuted this case, are overblown at best and unsupportable at worst. Although the court expects
counsel to advocate zealously in their clients' defense, this is not a free pass to level serious
accusations of misconduct against the government absent proof.

29a

Case: 3:17-cr-00082-wmc Document #: 148 Filed: 07/22/19 Page 20 of 20
government's responses to the various evidentiary "loose ends" mentioned in defendant's
brief,8 the court is satisfied that the government has complied with its discovery
obligations. Simply because the government's responses to defendant's inquiries may not
be helpful or satisfactory to defendant does not mean an evidentiary hearing is required.
Even so, Detective Roloff’s sloppiness, both in producing documents and recalling
details, does continue to be of concern to the court. For that reason, the court will order
production of Roloff’s investigative files. However, absent some new basis to conclude that
material, favorable evidence has been withheld being disclosed in those files, defendant’s
post-trial motions will be denied.
ORDER
IT IS ORDERED that:
1. Defendant's motion for arrest of judgment under Fed. R. Crim. P. 34 (dkt.
#128) is DENIED; and
2. Defendant's motion for a new trial under Fed. R. Crim. P. 33 (dkt. #127)
is DENIED, except that the government shall produce to defendant’s
counsel on or before July 29, 2019, Roloff’s case files regarding any
investigation of the defendant specifically and of 1502 Greenway Cross
generally. Defendant may then have seven days from production to come
forward with some new evidence supporting a new trial or his motion will
be denied in full.
Dated this 22nd day of July, 2019.
BY THE COURT:
/s/
__________________________________
WILLIAM M. CONLEY
District Judge

Namely, whether a phone "toll" was run on defendant's phone, whether surveillance video exists,
and the number of times Roloff met with Breitzke.
8

20
30a

